           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  STATE AND LOCAL GOVERNMENTS’
      COLLECTION AND USE OF
     SOCIAL SECURITY NUMBERS

  September 2007   A-08-07-17086




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      September 10, 2007                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   State and Local Governments’ Collection and Use of Social Security Numbers
           (A-08-07-17086)


           OBJECTIVE

           Our objective was to assess State and local governments’ collection and use of Social
           Security numbers (SSNs) and the potential risks associated with current practices.

           BACKGROUND

           State and local governments provide programs and services to millions of individuals
           each year. To assist in this process, many State and local governments collect and use
           SSNs for various purposes. Although no single Federal law regulates overall use and
           disclosure of SSNs, the Social Security Act, the Privacy Act of 1974, and the Family
           Educational Rights and Privacy Act, contain provisions that govern disclosure and use
           of SSNs. See Appendix A for more information on the specific provisions of these laws.
           Additionally, the Office of Management and Budget (OMB) recently issued a
           memorandum to Federal agencies on safeguarding against and responding to
                                                                             1
           breaches of personally identifiable information, including SSNs. Federal agencies are
           required to reduce the volume of collected and retained personally identifiable
           information to the minimum necessary, 2 including establishment and implementation of
           plans to eliminate unnecessary collection and use of SSNs. 3 The OMB guidelines also
           require Federal agencies to develop and implement an appropriate policy relative to
           safeguarding personally identifiable information outlining the rules of behavior and
           identifying consequences and corrective actions available for failure to follow these
           rules. 4

           1
             OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach in Personally
           Identifiable Information, May 22, 2007.
           2
               OMB M-07-16, page 2.
           3
               OMB M-07-16, Attachment 1, § B.2.a.
           4
               OMB M-07-16, Attachment 4 § A.
Page 2 - The Commissioner


We reviewed relevant laws from all 50 States to (1) discern the purposes for which SSN
collection and use is legally mandated, (2) identify measures States have taken to limit
SSN collection and use and (3) evaluate State laws that govern the protection of SSNs
from improper use and disclosure. Because of the large number of State and local
entities and associated programs throughout the United States, we focused our review
on the following:

•   existing State laws as previously described,
•
                                                                                  5
    State and local governments’ posting of SSNs on Internet websites,
•   SSNs used for kindergarten through 12th grade (K-12) school registration and
    tracking,
•   SSNs used in State prescription drug monitoring programs,
•   cases in which State and local governments inadvertently and/or improperly
    disclosed SSNs, and
•   measures and/or laws implemented by States or local governments that we believe
    represent best practices.

See Appendix B for additional details regarding our scope and methodology.

RESULTS OF REVIEW
Based on our reviews of selected State and local governments’ policies and practices,
we are concerned about the collection, use and protection of SSNs by these entities.
Despite the increasing threat of identity theft, some State and local governments collect
and use SSNs for various purposes, even when another identifier would suffice. While
Federal or State law may require that government agencies collect SSNs in some
instances, we believe some do so for convenience. In our opinion, a government entity
should not place more value on convenience than on the security of its constituents’
personal information. We also believe individuals who provide their SSNs to
government entities have an expectation that these numbers will be protected from
public disclosure. Based on our previous audit and investigative findings, we know
unnecessary use of SSNs increases the potential for dishonest individuals to
illegitimately attain these numbers and misuse them, thus creating SSN integrity issues.
Some State and local governments shared our concern regarding the protection of this
sensitive personal information—and preventing improper disclosure and identity theft—
and have taken steps to reduce the collection and use of SSNs.




5
  We reviewed Internet websites of all State governments. We also selected and reviewed a sample of
local government and K-12 school websites because of the large number of such entities.
Page 3 - The Commissioner


Given the Federal government’s increased actions to safeguard SSNs, we believe SSA
should seek legislation to limit State and local governments’ collection and use of SSNs
and improve the protection of this information when obtained. We also believe such
legislation should model OMB’s guidance to Federal agencies and include similar
penalties or “consequences” when State or local governments/employees fail to follow
these laws.

STATE AND LOCAL GOVERNMENTS’ COLLECTION AND USE OF SSNs

State and local governments collect and use SSNs for a variety of purposes. We
identified instances in which they posted public documents that contained SSNs on the
Internet, used SSNs for school registration and student tracking, and collected SSNs to
                                      6
monitor prescription drug programs. In addition, the Government Accountability Office
(GAO) reported that State and local government agencies frequently collect and use
SSNs to administer their programs, verify applicants’ eligibility for services and benefits,
and perform research and evaluations. Although GAO found that some government
agencies had taken steps to limit the use and display of SSNs, the numbers were still
available in a variety of public records held by States, local jurisdictions, and courts. 7

SSNs Posted on the Internet

Some State and county governments post Uniform Commercial Code (UCC) filings,
property tax assessor files, motor vehicle records, registered voter files, and court filings
that contain SSNs on the Internet. State and local governments routinely make
documents available to the public and allow individuals to make copies at courthouses
and county offices. To reduce the time employees spend pulling and copying
documents for the public, some States and counties post public documents on the
Internet. Unfortunately, some of these documents include individuals’ SSNs that may
be viewed by individuals who do not have a need to know this information.

During our audit period, 11 States were posting copies of UCC filings that included
individuals’ SSNs on the Internet. However, we are encouraged to report that, by the
completion of our audit work, eight of these States had discontinued this practice.
Some of these States redacted the SSNs from the on-line documents, and others no
longer allowed users to obtain the documents on-line. Unfortunately, at the time of this
report, three States still had copies of UCC filings that included individuals’ SSNs on the
Internet. 8 Displaying such information on the Internet allows countless individuals to

6
 We do not intend to imply that these are the only ways in which State and local governments collect and
use SSNs.
7
 Social Security Numbers: Federal and State Laws Restrict Use of SSNs, yet Gaps Remain
(GAO-05-1016T, September, 2005).
8
  Maryland, Ohio and Rhode Island. In response to our draft report, the Ohio Secretary of State sent us a
letter stating that her office has taken the necessary steps to assure the redaction of SSNs for current
online UCC filings. In June 2007, the new administration implemented a project that will ensure the
redaction of SSNs for archived, online UCC filings by September 30, 2007.
Page 4 - The Commissioner


view others’ SSNs, unnecessarily subjecting them to the possibility of identity theft. As
such, we encourage State and local governments not to place SSNs on public
documents that may be seen by others or post such documents on the Internet.
Additionally, we encourage these government entities to examine their collection of
SSNs and, if possible, use an alternative identifier.

SSNs Used for School Registration and Student Tracking

Some K-12 schools require students’ SSNs for school registration and use SSNs to
track students throughout their school years. For example, we identified laws in
             9
three States that required that schools obtain students’ SSNs. Additionally, schools in
40 other States 10 collected students’ SSNs at registration, even though no State law
required that they do so. Schools often use SSNs as primary student identifiers to help
in record keeping and to identify students when they transfer to another school or apply
for college. The No Child Left Behind Act of 2001 11 requires that each State implement
a Statewide accountability program that measures the progress of students and schools
through the collection and analysis of data. However, this law does not require that
States use SSNs to identify and track students. Rather, we believe some K-12 schools
use SSNs as a matter of convenience. The number is unique and, in many cases, is
already established to help schools track students throughout their school careers.

For the 2004/2005 school year, the National Education Association estimated that there
were more than 48 million K-12 students in over 15,000 school districts across the
         12
country. We believe the collection and use of SSNs without proper controls is a
significant vulnerability for this young population. Recent data indicate the number of
children under age 18 whose identities have been stolen is growing. 13 This is
particularly troubling given that some of these individuals may not become aware of
such activity until they apply for a credit card or student loan.




9
    Alabama, Georgia, and Tennessee.
10
  Alaska, Arizona, Arkansas, California, Colorado, Connecticut, Delaware, Florida, Hawaii, Idaho, Illinois,
Indiana, Iowa, Kansas, Kentucky, Louisiana, Maryland, Massachusetts, Michigan, Minnesota, Mississippi,
Missouri, Montana, Nebraska, Nevada, New Jersey, New York, North Carolina, North Dakota, Ohio,
Oregon, Pennsylvania, South Carolina, South Dakota, Texas, Utah, Virginia, Washington, Wisconsin, and
Wyoming.
11
     Pub. L. No. 107-110 § 1111(b)(3).
12
     Ranking and Estimates, June 2005. National Education Association.
13
  According to the Federal Trade Commission, identity theft complaints from individuals under age
18 increased from 3 percent of all identity theft complaints it received in 2003 to 5 percent in 2005.
National and States Trends in Fraud and Identity Theft: January – December 2003, January 2004.
Federal Trade Commission. Identity Theft Victim Complaint Data: January 1 – December 31, 2005,
January 2006. Federal Trade Commission.
Page 5 - The Commissioner


In previous audits, 14 we assessed universities’ use of SSNs as student identifiers and
identified instances in which universities used SSNs as the primary student identifier or
for other purposes. Numerous incidences of identity theft at colleges and universities
and the recognition that SSNs are linked to vast amounts of personal information led
some schools to reconsider the practice of using SSNs as primary student identifiers.
Several schools took steps to reduce their reliance on SSNs or turned to alternative
identifiers. In addition, some States enacted laws to regulate college and university use
of SSNs. We are encouraged by these efforts and suggest that State and local
governments consider affording these same protections to their youngest constituents –
those in K-12 schools.

SSNs Used to Monitor State Program

Some State and local governments collect and use SSNs to administer various
programs and services. For example, we identified prescription drug monitoring
programs in some States, which track individuals who obtain controlled substance
prescriptions. As part of these programs, some States require that individuals who
present a prescription for a controlled substance provide a unique identifying number,
such as a driver’s license, passport, or SSN. Kentucky policy mandates that this
identifier be the individual’s SSN. However, Alabama, Hawaii, Massachusetts and
Indiana give individuals an option of providing an SSN or other unique number. While
these programs aid law enforcement in obtaining information against suspected
criminals, we believe States could rely on other unique identifying documents, such as
a driver’s license (which includes a photograph) to track individuals. We encourage
States to use a substitute for the SSN if a personal identifier is needed to track
individuals in a State program.

POTENTIAL RISKS ASSOCIATED WITH COLLECTING AND USING SSNs

Each time an individual divulges his or her SSN, the potential for a thief to illegitimately
gain access to bank accounts, credit cards, driving records, tax and employment
histories and other private information increases. We believe the following examples
illustrate individuals’ risk of exposure to such activity.

•    The Mississippi Secretary of State’s Internet website posted over 2 million
     documents containing thousands of individuals’ SSNs. State officials removed the
     link to the documents after a privacy activist filed a complaint.

•    An Ohio county’s website contained public documents, including traffic tickets, that
     contained individuals’ SSNs and other personal information. Individuals involved in
     an identity theft ring were arrested in March 2006 for allegedly stealing nearly
     $500,000 with the aid of the county’s website.



14
 Universities' Use of Social Security Numbers as Student Identifiers in Regions IV and X,
December 2004 and March 2005.
Page 6 - The Commissioner


•    A high school in Illinois mistakenly posted SSNs and other personal information of
     over 2,000 students on the school’s website.

•    A high school in Michigan had a hard drive stolen that contained SSNs, transcripts,
     test scores, and addresses of students who graduated from the high school
     between 1994 and 2007. It is unclear how many students this may have impacted.

•    A California county department of public social services disposed of documents that
     contained names, addresses, telephone numbers, SSNs, and medical information
     of an estimated 94,000 people who received services from the office over 3 years.
     Those documents were disposed of next to a public recycling bin.

SOME STATE AND LOCAL GOVERNMENTS HAVE TAKEN STEPS TO LIMIT SSN
COLLECTION AND USE

The increase in identity theft and the recognition that SSNs are linked to vast amounts
of personal information have led some State and local governments to limit SSN
                   15
collection and use. We identified 11 States that have taken steps to remove SSNs
from public documents 16 and 24 States that have passed laws to protect individuals’
SSNs from being on public documents. 17 In addition, we identified 15 States that have
passed laws to restrict companies and individuals from posting or publicly displaying
       18
SSNs, printing them on cards, transmitting them over the Internet, and mailing them
without safety measures. The following examples illustrate these steps.

•    New Jersey prohibits individuals’ SSNs on documents intended for public recording.
     County recording offices have the authority to remove SSNs from documents.

•    California allows individuals to redact SSNs from pleadings, attachments,
     documents, or other written material filed with a court. Individuals are responsible
     for requesting the court to remove their SSN from a public document.



15
   We do not intend to suggest that the States discussed below are the only States that have taken steps
to limit SSN collection and use.
16
  Alabama, California, Georgia, Indiana, Kansas, Nevada, New Jersey, New York, North Carolina, Ohio,
and Tennessee have laws to remove SSNs from public documents if not required by Federal law.
17
  The following States have laws to protect individuals’ SSNs from being on public documents: Alabama,
California, Georgia, Indiana, Iowa, Kansas, Louisiana, Maine, Minnesota, Nevada, New Hampshire, New
Jersey, North Carolina, Ohio, Oregon, Pennsylvania, South Carolina, South Dakota, Tennessee, Texas,
Utah, Vermont, West Virginia, and Wisconsin.
18
  The law only applies to individuals in Illinois, Maryland, Michigan, and Virginia. The law applies to both
individuals and entities in Arizona, Arkansas, California, and Colorado. The law only applies to entities in
Connecticut, Minnesota and Missouri. The law only applies to businesses in New Mexico and Vermont
and only to employing entities in Oklahoma. In Texas, the law applies to individuals other than
government or a government subdivision or agency.
Page 7 - The Commissioner


•     North Carolina prohibits government agencies and their representatives from
      collecting SSNs from individuals unless it is authorized by law or imperative for the
      performance of that agency’s duties, as prescribed by law. Government agencies
      and their representatives are prohibited from intentionally communicating SSNs to
      the general public, printing SSNs on cards, or printing them on any material mailed
      to the individual unless required by Federal or State law. This law also applies to
      businesses.

•     South Carolina prohibits SSNs that are provided in voter registration applications
      from being disclosed to the public.

•     Alabama requires that State agencies remove SSNs before making documents
      public, unless the document is a lien, conviction record, or bankruptcy filing.

In February 2007, the Maricopa County Recorder’s Office in Phoenix, Arizona, began
                                                                                   19
redacting SSNs from 83 million public documents it had posted on the Internet.
County officials told us they undertook this $4.5-million project in response to identity
                 20
theft concerns, constituent complaints about the on-line SSN postings, and the desire
to take a proactive approach in addressing this issue. 21 The recorder’s office hired a
contractor to perform the SSN redaction project because officials believed the
                                                                               22
increased workload would require too much additional work for office staff. The
county selected a contractor who could manually review each document to ensure all
SSNs were removed. In fact, the county specified that each document be manually
reviewed by two individuals to ensure a 99.95 percent accuracy rate. When the
contractor completes the SSN redaction project in July 2007, the county plans to
purchase redaction software so it can conduct its own process in the future. Under a
new Arizona law, individuals who file documents with the county must remove SSNs
unless Federal law requires that the number be on the document. However, county
officials told us they still plan to use redaction software to ensure they do not post SSNs
on the Internet in the future. While this was an expensive undertaking for Maricopa
County, we applaud its actions to better secure its constituents’ personal data.

We also identified instances in which K-12 schools have reduced their reliance on
SSNs or turned to alternative identifiers. For example, in 2005, Arkansas passed The
Student Identity Protection Act, 23 which prohibits schools from using, displaying,
19
   The county recorder’s office began posting public records on the Internet in 1997 and included records
from 1991 forward. County officials estimated that about 6 percent of the documents contained SSNs.
20
  In 2005, the Phoenix metropolitan area had the highest rate of identity theft in the nation according to
the Federal Trade Commission.
21
  County officials told us they funded the SSN redaction project with fees the recorder’s office received for
each recorded document. According to county officials, the recorder’s office did not use any of the
county’s general funds to pay for the SSN redaction project.

22
     County officials told us the recorder’s office receives about 6,500 documents daily.
23
     Ark. Stat. Ann. § 6-18-208(d).
Page 8 - The Commissioner


releasing, or printing a student’s SSN or any part of the SSN on any report,
identification card or badge, or on any document that will be made available or released
to the public, to a student, or to a student’s parent or guardian without express written
consent except if the records are transferred to or between the Arkansas Department of
Education, other public schools or school districts, or other government agencies as
allowed or required by Federal law, State law, or State Board of Education rule. The
Pennsylvania Department of Education recently decided to forbid school districts from
requiring that students show SSNs to register. Instead, the Pennsylvania Department
of Education plans to start tracking students with an assigned unique identification
number to help guard against identity theft. The Alaska Department of Education and
Early Development attempted and failed to use students’ SSNs as their primary student
identifier. The schools received approximately 60 percent of students’ SSNs because
many parents refused to provide the numbers. As a result, the Alaska Department of
Education decided to begin assigning a 10-digit number to each K-12 child in the public
schools.

CONCLUSION AND RECOMMENDATIONS

Despite the potential risks associated with collecting and using SSNs, many State and
local governments continue this practice. While we recognize SSA cannot prohibit
State and local governments from using SSNs, we believe SSA should seek legislation
that would limit State and local governments’ collection and use of SSNs and improve
protection of this information when it is obtained. We recognize that such legislation
could be inconvenient for States and local governments and may initially result in a cost
investment when converting current programs that use the SSN. However, given the
potential threats to SSN integrity, such a challenge should not discourage SSA from
seeking these measures, which will better safeguard the sensitive and personal
information of numberholders.

Accordingly, we recommend that SSA:

1. Seek legislation to limit State and local governments’ collection and use of SSNs
   and improve the protection of this information when obtained. We believe such
   legislation should model OMB’s guidance to Federal agencies and include similar
   penalties or “consequences” when State or local governments fail to follow these
   laws.

2. Coordinate with State and local governments (for example, through national and
   regional governmental associations) to educate them about the potential risks
   associated with collecting and improperly disclosing SSNs.

3. Promote the best practices of State and local governments that have taken steps to
   limit SSN collection and use.
Page 9 - The Commissioner


AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with Recommendations 2 and 3. Although SSA disagreed with
Recommendation 1, it agreed in principle with similar legislation currently under
consideration by Congress. 24 We are pleased that SSA is supportive of legislation to
limit State and local governments’ collection and use of SSNs and improve the
protection of this information when obtained. We concur that seeking additional or
separate legislation would not be necessary if H.R. 3046 becomes law.

SSA also provided technical comments that we considered and incorporated, where
appropriate. SSA’s comments are included in Appendix C.




                                                         Patrick P. O’Carroll, Jr.




24
  On July 18, 2007, the House Committee on Ways and Means voted to approve the Social Security
Number Privacy and Identity Theft Prevention Act of 2007 (H.R. 3046), a bill to amend the Social Security
Act to prevent Federal, State and local governments from displaying SSNs to the public, showing the
numbers on identification tags and cards and, in most cases, selling the numbers.
                                      Appendices
APPENDIX A – Federal Laws that Govern Disclosure and Use of the Social Security
             Number
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                                     Appendix A

Federal Laws that Govern Disclosure and Use
of the Social Security Number
The following Federal laws establish a general framework for disclosing and using the
Social Security number (SSN).

The Privacy Act of 1974 (the “Privacy Act”) 1

The Privacy Act indicates, in part, that it is unlawful for any Federal, State, or local
government agency to deny any individual any right, benefit, or privilege provided by
law because of such individual’s refusal to disclose his or her SSN, unless the
disclosure is required by Federal statute or is to any Federal, State or local agency
maintaining a system of records in existence and operating before January 1, 1975,
such disclosure was required under statute or regulation adopted prior to such date to
                                     2                                                 3
verify the identity of an individual. Further, under Section 7(b) of the Privacy Act, any
Federal, State, or local government agency requesting that an individual disclose
his/her SSN must inform the individual whether the disclosure is voluntary or
mandatory, by what statutory or other authority the SSN is solicited and what uses will
be made of the SSN.
                                                              4
The Family Educational Rights and Privacy Act

The Family Educational Rights and Privacy Act (FERPA) protects the privacy of student
education records. FERPA applies to those schools that receive funds under an
                                                           5
applicable program of the U.S. Department of Education. Under FERPA, an
educational institution must have written permission from the parent or eligible student
to release any personally identifiable information (which includes SSNs) from a
student’s education record. 6 FERPA does, however, provide certain exceptions in


1
    Pub. L. No. 93-579, 5 U.S.C. 552a.
2
    Pub. L. No. 93-579 § 7(a), 5 U.S.C. 552a, note 7.
3
    Pub. L. No. 93-579 § 7(b), 5 U.S.C. 552a, note 7.
4
    20 U.S.C. § 1232g.
5
    34 C.F.R. Part 99, Subpart A, § 99.1.
6
  20 U.S.C. § 1232g(b).FERPA gives parents certain rights with respect to their children’s education
records. 34 C.F.R. Part 99 Subpart B § 99.10(a). These rights transfer to the child when the child
reaches the age of 18 or attends an institution of postsecondary education. 20 U.S.C. § 1232g(d).
Children that have been transferred rights are referred to as “eligible students”. 34 C.F.R. Part 99,
Subpart A § 99.5(a).


                                                        A-1
which a school is allowed to disclose records without consent. 7 These exceptions
include disclosure without consent to other school officials who have a legitimate
educational interest in the information, to officials of institutions where the student is
seeking to enroll/transfer, to parties to whom the student is applying for financial aid, to
the parent of a dependent student, to appropriate parties in compliance with a judicial
order or lawfully issued subpoena, or to health care providers in the event of a health or
safety emergency. 8

The Social Security Act

The Social Security Act provides, in part, that “Social security account numbers and
related records that are obtained or maintained by authorized persons pursuant to any
provision of law, enacted on or after October 1, 1990, shall be confidential, and no
authorized person shall disclose any such social security account number or related
record”. 9 The Social Security Act also provides, in part, that “[w]hoever discloses, uses,
or compels the disclosure of the social security number of any person in violation of the
                                                         10
laws of the United States; shall be guilty of a felony…”. The Social Security Act
authorizes certain State and local agencies to use the SSN for certain purposes and
allows, or in certain instances requires, such agencies to require individuals to furnish
their SSNs for such purposes. 11




7
    20 U.S.C. § 1232g(b)(1).
8
    20 U.S.C. § 1232g(b)(1).
9
    42 U.S.C. § 405(c)(2)(C)(viii).
10
     42 U.S.C. § 408(a)(8).
11
     42 U.S.C. § 405(c)(2)(C)(i), (ii), (v), (vi), (D) and (E).


                                                           A-2
                                                                                Appendix B

Scope and Methodology
To accomplish our objective, we reviewed relevant laws from all 50 States to (1) discern
the purposes for which Social Security number (SSN) collection and use is legally
mandated, (2) identify measures States have taken to limit SSN collection and use and
(3) evaluate State laws that govern the protection of SSNs from improper use and
disclosure. Because there are such a large number of State and local entities and
associated programs throughout the United States, we focused our review on the
following:

•   existing State laws as previously described;
•   State and local governments’ posting of SSNs on Internet websites; 1
•   SSNs used for kindergarten through 12th grade (K-12) school registration and
    tracking;
•   SSNs used in State prescription drug monitoring programs;
•   cases in which State and local governments inadvertently and/or improperly
    disclosed SSNs;
•   measures and/or laws implemented by States or local governments that we believe
    represent best practices;
•   interviewed selected county officials responsible for redacting SSNs from the
    Internet; and
•   reviewed selected studies, articles, and reports regarding State and local
    governments’ collection and use of SSNs.

We visited one county recorder’s office and interviewed officials to learn more about
their SSN redaction project. In addition, we identified State and local governments,
including K-12 schools, that have limited their use of SSNs and determined the reasons
for this changes and best practices that could be adopted by other State and local
governments. Our review of internal controls was limited to gaining an understanding of
the use of SSNs by State and local governments. The Social Security Administration
entity reviewed was the Office of the Deputy Commissioner for Operations. We
conducted our audit from October 2006 through April 2007 in accordance with generally
accepted government auditing standards.




1
  We reviewed Internet websites of all State governments. We also selected and reviewed a sample of
                                               th
local government and kindergarten through 12 grade school websites because of the large number of
such entities.
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:        August 23, 2007 Refer                                               Refer To: S1J-3

To:          Patrick P. O'Carroll, Jr.
             Inspector General

From:        David V. Foster        /s/
             Chief of Staff

Subject:     Office of the Inspector General (OIG) Draft Report, “State and Local Governments' Collection
             and Use of Social Security Numbers" (A-08-07-17086)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the reports findings and
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “STATE AND LOCAL GOVERNMENTS’ COLLECTION AND USE OF
SOCIAL SECURITY NUMBERS” (A-08-07-17086)


Thank you for the opportunity to review and comment on the draft report. As the issuer of Social
Security numbers (SSN), we have been an active participant and are continuously working with
Federal agencies to address issues surrounding Personally Identifiable Information (PII) breaches.
We serve as a member of the President’s Interagency Identity Theft Task Force whose mission is
to strengthen Federal efforts to protect against the unlawful use of another person’s identifying
information. As part of those efforts, we are already in the process of assessing the public and
private sector uses of SSNs to identify actions that will strengthen the Federal government’s
efforts in the fight against identity theft. We are committed to helping States reduce unnecessary
collection of SSNs and to improve protections and safeguards. We believe the actions planned,
or taken, as described in our responses to the specific recommendations below, help achieve
those goals. We are also providing some technical comments to enhance the accuracy of the
report.
Recommendation 1

The Social Security Administration (SSA) should seek legislation to limit State and local
governments’ collection and use of SSNs and improve the protection of this information when
obtained. We believe such legislation should model the Office of Management and Budget’s
guidance to Federal agencies and include similar penalties or “consequences” when State or local
governments fail to follow these laws.

Response

We disagree. The legislation that OIG is recommending is the subject of wider legislation
currently under consideration by Congress. On July 18, 2007, the House Committee on Ways
and Means voted 41-0 to approve H.R. 3046, a bill to amend the Social Security Act to prevent
Federal, State and local governments from displaying SSNs to the public, showing the numbers
on identification tags and cards and, in most cases, selling the numbers. We believe the bill
addresses this recommendation and provides for penalties or ‘consequences’ when State or local
governments fail to follow these laws. Seeking additional or separate legislation is not
appropriate and could be counterproductive.

Recommendation 2

SSA should coordinate with State and local governments (for example, through national and
regional governmental associations) to educate them about the potential risks associated with
collecting and improperly disclosing SSNs.




                                               C-2
Response

We agree. We believe more can be done to alert State and local governments to the risks of
using and/or displaying SSNs on documents that are used as identifiers of the public. We
(through our Office of External Affairs) will continue to use our contacts with national
organizations to alert the staffs of these organizations to the risks of including SSNs on public
documents and will request their help in reducing instances where SSNs are printed or displayed
on computer terminals. We will also continue to make the public aware, through SSA public
information materials and news articles placed in local print media, of the problems associated
with the misuse and over utilization of SSNs.
Recommendation 3

SSA should promote the best practices of State and local governments that have taken steps to
limit SSN collection and use.

Response
We agree. As part of our efforts described for recommendation number 2, we will identify and
promote the best practices used by those public entities that find ways to limit the use of SSNs in
conducting their routine business with the public.




                                                C-3
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly Byrd, Director, Southern Audit Division, (205) 801-1650

   Jeff Pounds, Audit Manager, (205) 801-1606

Acknowledgments

In addition to those named above:

   Hollie Reeves, Auditor

   Neha Smith, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-08-07-17086.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
